2311 Douglas Street E-Mail Address:

 

Legal Briefs

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
E 23
1-800-225-6964 Web Site
(402) 342-2831 www .cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-1204

SIMON CAMPBELL AND
PENNSYLVANIANS FOR UNION REFORM,
Petitioners,
ve
PENNSYLVANIA SCHOOL BOARDS ASSOCIATION;
MICHAEL FACCINETTO, SOLELY IN HIS INDIVIDUAL
CAPACITY; DAVID HUTCHINSON, SOLELY IN HIS
INDIVIDUAL CAPACITY; OTTO W. VOIT, II], SOLELY
IN HIS INDIVIDUAL CAPACITY; KATHY SWOPE,
SOLELY IN HER INDIVIDUAL CAPACITY; LAWRENCE
FEINBERG, SOLELY IN HIS INDIVIDUAL CAPACITY;
ERIC WOLFGANG. SOLELY IN HIS INDIVIDUAL
CAPACITY; DANIEL O’ KEEFE, SOLELY IN HIS
INDIVIDUAL CAPACITY; DARRYL SCHAEFER,
SOLELY IN HIS INDIVIDUAL CAPACITY: THOMAS
KEREK, SOLELY IN HIS INDIVIDUAL CAPACITY; AND
LYNN FOLTZ, SOLELY IN HER INDIVIDUAL CAPACITY,
Respondents.

 

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of May, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:

MICHAEL |. LEVIN

Counsel of Record
DAVID W. BROWN
LEVIN LEGAL GROUP
1800 Byberry Road, Suite 1301
Huntingdon Valley, PA 19006
(215) 938-6378
mlevin@levinlegalgroup.com
Counsel for Respondents

Subscribed and sworn to before me this 17th day of May, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

   
  

[ é TERERAL MOTARY State of Badraska
é i RENEE J, GOSS.
F memciogemm pty comm. & , deptomber 6, 2023 ;

         

Notary Public 40857
SERVICE LIST
Counsel of record for Petitioners (Simon Campbell and Pennsylvanians for Union Reform):

Jacob Cohn

Gordon & Rees

1717 Arch Street, Suite 610
Philadelphia, PA 19103
(215) 717-4004
jeohn@grsm.com

Additional counsel for Petitioners:

Ilan Rosenberg

Gordon & Rees

1717 Arch Street, Suite 610
Philadelphia, PA 19103
(215) 717-4026
irosenberg@grsm.com
